TN

C@OCKLE

Le g al Brie fg E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

DEPUTY SHANNON DEASEY, DEPUTY PETER
GENTRY, DEPUTY GARY BRANDT, SGT. MIKE
RUDE, AND COUNTY OF SAN BERNARDINO,
Petitioners,

Vv.

DANIELLA SLATER AND DAMIEN SLATER
(individually and as successors in interest, by and
through their guardian ad litem Sandra Salazar),
TINA SLATER AND DAVID BOUCHARD,

Respondents.

CERTIFICATE OF COMPLIANCE
“As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(6), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8258 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL MOTARY-State of Sebraska CAL,
RENEE J. Goss Kense. 0 Yoo Ouida & Ae
My Comm. Exp. September 6, 2023 .
Notary Public Affiant 39398
